No. 20-679
MICRON TECHNOLOGY, INC.,
Petitioner,
v.
NORTH STAR INNOVATIONS, INC.,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Reply Brief for Petitioner was hand-delivered by courier to the U.S. Supreme Court on January 5, 2021. Additionally, a copy of the Reply Brief
for Petitioner was sent to counsel by overnight FedEx,
as well as by transmitting a digital copy via electronic
mail.
Jeffrey B. Wall
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
Direct: 202-514-2217
E-mail: SupremeCtBriefs@USDOJ.gov

Edward C. Flynn
Eckert Seamans Cherin & Mellott, LLC
600 Grant Street
44th Floor, USX Tower
Pittsburgh, PA 15219
Direct: 412-566-6000
Email: eflynn@eckertseamans.com
/s/ Melanie L. Bostwick
Counsel of Record

